               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Post Office Discontinuance
            Accounting Procedures

                       Audit Report




                                         September 25, 2012

Report Number FF-AR-12-007
                                                                      September 25, 2012

                                               Post Office Discontinuance Accounting
                                                                          Procedures

                                                           Report Number FF-AR-12-007



BACKGROUND:
The U.S. Postal Service discontinued           units. Specifically, the Postal Service did
537 retail units from fiscal years 2009        not allocate revenue and expenses to
through 2011. Although initiatives to          the appropriate gaining unit after
close more retail units have been              discontinuing operations at 271 (or 50
abandoned, the closing of postal units         percent) of the 537 postal retail units. In
may occur in the future.                       addition, the Postal Service did not
                                               provide adequate visibility of financial
Between the time operations end at a           transactions at 221 (or 41 percent) of
discontinued unit and the financial            the 537 units. Rather, transactions from
records are closed and deactivated,            these units were commingled with
accounting transactions can be charged         transactions from other, related units. As
to the discontinued unit. Those                a result, we identified about $17 million
transactions should be allocated to the        annually of improperly allocated revenue
unit that will be assuming the operations      and expenses.
of the discontinued unit and have
adequate visibility so they can be             While the Postal Service has recently
monitored for propriety. Therefore,            issued a management instruction and
having the correct policies and controls       an updated handbook, neither
in place is important to ensure proper         documents a process to deactivate a
allocation and visibility of all financial     finance number and allocate or provide
transactions associated with future            adequate visibility over financial activity
closures and is key to the success of          occurring subsequent to the unit closing.
any new initiatives.
                                               WHAT THE OIG RECOMMENDED:
Our objective was to determine whether         We recommended management
the Postal Service properly accounted          develop specific criteria to deactivate
for revenue, expenses, assets, and             finance numbers at discontinued postal
liabilities when discontinuing postal retail   retail units. Also, we recommended that
units.                                         management establish a method to
                                               allocate revenue and expenses at
WHAT THE OIG FOUND:                            discontinued station and branch
The Postal Service properly accounted          operations, and provide adequate
for the disposition of assets and              visibility of all transactions.
liabilities at discontinued units; however,
it did not properly allocate and provide       Link to review the entire report
adequate visibility of revenue and
expenses at discontinued postal retail
September 25, 2012

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Post Office Discontinuance Accounting
                           Procedures (Report Number FF-AR-12-007)

This report presents the results of our audit of the evaluation of Post Office™
Discontinuance Accounting Procedures (Project Number 12BG005FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Stephen J. Masse
    Dean J. Granholm
    Corporate Audit and Response Management
Post Office Discontinuance                                                                                         FF-AR-12-007
 Accounting Procedures



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Allocation and Visibility of Revenue and Expenses for Discontinued Postal Retail Units 3

   Allocating Expenses for Discontinued Post Offices ..................................................... 3

   Visibility of Revenue and Expenses for Discontinued Stations and Branches ............. 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Other Impacts ............................................................................................. 9

Appendix C: Management’s Comments ........................................................................ 10
Post Office Discontinuance                                                                               FF-AR-12-007
 Accounting Procedures




Introduction

This report presents the results of our audit of the evaluation of Post Office
discontinuance accounting procedures (Project Number 12BG005FF0000). Our
objective was to determine whether the U.S. Postal Service properly accounted for
revenue,1 expenses,2 assets,3 and liabilities4 when discontinuing postal retail units.5
This self-initiated audit addresses financial risk. See Appendix A for additional
information about this audit.

The Postal Service principally conducts retail business at 26,600 post offices (lead
offices) and at 4,800 subordinate6 units of the lead offices, known as branches or
stations. The Postal Service’s accounting system was designed to distinguish financial
activity among these units by assigning each lead office a unique finance number. Each
unit’s finance number consists of 10 digits, with the 1st six digits being unique for each
of the 26,600 lead offices.7 However, while the 1st six digits are unique among each of
the lead units, any assigned subordinate branch or station uses the same 1st six digits
as the lead unit to which it is assigned. The branches and stations are distinguished by
a four-digit extension, which is unique only among the branches and stations assigned
to a lead office. For example:

         Lead Office 1 Finance Number 1234560000
                      Station A Finance Number 1234560001
                      Station B Finance Number 1234560002

         Lead Office 2 Finance Number 2345670000
                      Station C Finance Number 2345670001
                      Station D Finance Number 2345670002

Many times, especially in large cities, there are a large number of subordinate stations
and branches assigned to a lead office. Financial information accumulates at the lead
office level, thereby making it difficult or sometimes impossible to sub-divide reported
information down to the subordinate station or branch level. However, all areas and
districts have the option of changing the historical organization of the finance numbers
in their district by assigning unique lead finance numbers to individual stations and
branches. All 67 Postal Service districts have accomplished this to some degree to
provide visibility and better control of financial information. They have changed the

1
  Revenues includes commercial revenue, retail revenue, appropriation revenue, and investment income.
2
  Expenses include transportation expenses and operating expenses, such as travel, training, and cleaning services.
3
  Assets include operating cash, property and equipment, buildings, land, and leasehold improvements.
4
  Liabilities include compensation and benefits, payables, and customer deposits.
5
  For this report, units represent post offices, stations, and branches.
6
  Subordinate refers to stations and branches without unique lead finance numbers, which report financial activity,
such as expenses, to a main Post Office.
7
  A unique lead finance number identifies a specific unit and only accumulates that unit’s financial data. In addition,
deactivating a unique lead finance number impacts only that specific unit.
                                                              1
Post Office Discontinuance                                                                              FF-AR-12-007
 Accounting Procedures


finance numbers for 3,000 stations and branches so that they now have unique lead
finance numbers; however, about 1,800 stations and branches without unique lead
finance numbers assigned remain.

Discontinuance of a unit occurs when operations physically cease and all activity is
transferred to another gaining unit.8 The final determination to discontinue a postal retail
unit is approved by the vice president, Delivery & Post Office Operations, and
announced in the Postal Bulletin.9 From fiscal years (FY) 2009 through 2011, the
Postal Service officially discontinued 537 postal retail units.

The Postal Service recently issued procedures10 to establish a consistent process for
closing the financial accountabilities11 at discontinued units. Additionally, in July 2011,
the Postal Service identified 3,652 postal retail units for possible closure in a program
titled the Retail Access Optimization Initiative (RAOI). In December 2011, the Postal
Regulatory Commission (PRC) issued an advisory opinion on RAOI, noting problems
with cost and revenue data associated with subordinate stations and branches not
having a unique lead finance number. In May 2012, the Postal Service abandoned the
RAOI in favor of drastically reducing hours of operation at these units.

A new initiative called the Post Office Structure Plan (POStPlan)12 reduces operating
hours at about 13,000 postal retail units. While the RAOI has been stopped,
management has stated that future closing of postal retail units is still a possibility.
Therefore, proper allocation of all financial transactions associated with future closures
is an important process in the success of any new initiative. The Postal Service should
have the ability to obtain cost and revenue data related to unit-specific operations.

Conclusion

The Postal Service properly accounted for the disposition of assets and liabilities at
discontinued units; however, the Postal Service did not properly allocate and provide
adequate visibility of revenue and expenses at discontinued postal retail units.
Specifically, the Postal Service did not allocate revenue and expenses to the
appropriate gaining unit after discontinuing operations at 271 (or 50 percent) of the
537 lead units. In addition, the Postal Service did not provide adequate visibility over
financial transactions at 221 (or 41 percent) of the 537 units. Rather, transactions from
these units were commingled with all transactions from other units with the same lead
finance number.



8
  The postal retail unit that assumes the discontinued unit’s financial and operational activity.
9
  The Postal Bulletin is the official source for Postal Service directives. Information includes discontinuances and
suspensions of Postal Service facilities.
10
   Management Instruction FM-130-2011-2, Closing the Financial Accountability of a Discontinued Post Office,
Station, Branch, or Community Post Office, June 30, 2011.
11
   Financial accountabilities include stamps, cash, customer trust accounts, money orders, employee items, and
Voyager and Smart Pay credit card accounts.
12
   The POStPlan maintains existing post offices, staffed by Postal Service employees, with a reduction in retail hours
to match customer usage.


                                                          2
Post Office Discontinuance                                                                               FF-AR-12-007
 Accounting Procedures


While the Postal Service recently issued unit discontinuance guidance, the guidance
does not document a process to deactivate a lead office finance number and allocate or
provide visibility of reported financial activity that occurs subsequent to the unit closing.
Further, the Postal Service did not assign responsibility for reviewing and allocating
financial transactions attributed to discontinued units. Not properly allocating revenue
and expenses associated with discontinued units affects the gaining unit’s budget,
operations, and potential closure considerations. As a result, the Postal Service cannot
accurately and comprehensively make educated decisions on future initiatives regarding
unit-specific cost and revenue data. We identified about $17 million annually of
improperly allocated revenue and expenses. See Appendix B for the other impact
calculation.

Allocation and Visibility of Revenue and Expenses for Discontinued Postal Retail
Units

The Postal Service did not properly allocate and provide adequate visibility of revenue
and expenses when discontinuing post offices, stations, and branches. Specifically, the
Postal Service did not deactivate finance numbers at 27113 of 537 postal retail units
closed from FYs 2009 through 2011. Deactivation occurs when the Postal Service
removes the lead office’s unique lead finance number from active status in the finance
number 14 system and prevents the recording of any additional financial transactions.

Our review of the 271 lead offices identified revenue of $23.6 million and expenses of
$4.4 million that were not appropriately allocated to the gaining postal retail unit. This
occurred because the Postal Service did not have accounting controls in place to
identify these misallocated financial transactions or assign responsibility for deactivating
the unique lead finance number. As a result, the Postal Service did not accurately
account for budget or operations at gaining units.15 The Postal Service should be able to
obtain financial data related to unit-specific operating and budgetary costs. This would
allow the Postal Service to accurately and comprehensively make informed decisions
on future initiatives, such as closing postal retail units.

Allocating Expenses for Discontinued Post Offices

We reviewed the types of expenses charged to the 271 discontinued lead offices, as
shown in Chart 1.



13
   An additional 45 lead offices correctly discontinued their unique six-digit finance numbers. These 45 units used ad
hoc procedures to close out the lead finance numbers, resulting in revenue and expenses being properly allocated to
the gaining unit. However, Postal Service policy currently does not address when or how to close out a unique lead
finance number at a discontinued unit.
14
   The Finance Number Control Master system is a database that contains organizational hierarchy information used
by the Postal Service for financial processing and reporting. The purpose of the database is to provide a master
reference source of the information needed to edit and validate accounting transactions and generate financial
reports.
15
   Revenue and expenses will be summarized with all financial information for the district at year’s end and, therefore,
not affect district-level budgeting.


                                                           3
Post Office Discontinuance                                                                            FF-AR-12-007
 Accounting Procedures



                           Chart 1. Expense Data for 271 Lead Offices




                                     16
Source: Accounting Data Mart (ADM).

The major expense categories from FYs 2009 through 2011 were personnel
compensation, workmen’s compensation chargebacks,17 and leasehold
improvements.18 The miscellaneous category included expenses such as supplies,
vehicle maintenance services, and rural carrier equipment maintenance. Postal Service
Headquarters accounting personnel determined that these charges should have been
allocated to either the gaining postal unit, or the postal district responsible for the
discontinued unit, or properly charged as termination accounting expenses.19 If the
271 lead office finance numbers were properly deactivated and removed from the
accounting system, the accounting system would have automatically returned these
transactions to the individual or department that initiated the expense for proper
determination and final allocation. However, Postal Service procedures for discontinuing
a unit did not designate anyone with the responsibility for deactivating the lead finance
number and ensuring its removal from the accounting system.

The Postal Service uses district discontinuance coordinators (coordinators) to ensure
the discontinuance process is orderly and completed timely. They coordinate with the
Finance, Supply Management, Real Estate Departments and postmasters at the

16
   ADM is the repository for all accounting and finance related data for the Postal Service. ADM provides a one-stop
reporting location for financial reports.
17
   These are ongoing workmen’s compensation charges being assessed against former employees of the
discontinued unit.
18
   Leasehold improvements are additions, improvements, or alterations made by the leasee to leased property that
cannot be removed upon termination of the lease because they are attached to, or form part of, the leased premises.
19
   These are charges that need to be expensed when a lease is terminated so they are allocated to the appropriate
accounting period and the financial statements are properly stated. For example, the balance of leasehold
improvements should be expensed when a lease is terminated.


                                                         4
Post Office Discontinuance                                                                                  FF-AR-12-007
 Accounting Procedures


discontinued and gaining postal units. Coordinators also manage the process of
transferring assets, review and facilitate lease matters, resolve utility issues, coordinate
district finance responsibilities, and facilitate the approval process between district
management and Postal Service Headquarters. However, the coordinator’s
administrative responsibility is complete when the vice president, Delivery and Post
Office Operations, officially declares a unit discontinued. Further, the recently issued
management instruction does not assign anyone the responsibility of deactivating the
lead office finance number and ensuring its removal from the accounting system. As a
result, no further financial reviews occurred, finance numbers were not deactivated, and
revenue and expenses continued to accrue to discontinued units.

In addition to our analysis above, we randomly reviewed documentation for
20 discontinuances for expenses not allocated to the gaining unit at four districts20 and
Postal Service Headquarters. Additionally, we discussed termination of leases,
expiration of contracts, and the proper allocation of physical assets with district, area,
and Postal Service Headquarters personnel. We did not identify any questionable
expenses during these reviews.

Visibility of Revenue and Expenses for Discontinued Stations and Branches

The Postal Service did not have a method to provide adequate visibility of revenue and
expenses charged against the 221 discontinued subordinate stations and branches.21
Based on the activity we found occurring for the discontinued lead post offices, we
estimated that as much as $19.2 million in revenue and $3.6 million in expenses were
accumulated to these units after they were discontinued. However, neither we nor
Postal Service personnel could determine the nature of any expenses, their propriety, or
where to allocate those transactions because the financial transactions accumulated to
the accounting records for the lead office. These transactions are commingled with all
transactions for units with the same lead finance number.22 Additionally, the method of
organizing the financial data around the lead finance number will prevent the Postal
Service from implementing action to address the PRC’s concerns. The PRC identified
problems with cost and revenue analysis when data roll up to the lead office. Organizing
financial data for all units around a unique lead finance number will allow the Postal
Service to identify cost and revenue associated with subordinate stations and branches.

Based on our audit, the Postal Service is considering developing an ADM report to
identify and accumulate station and branch financial information and facilitate
transaction visibility and allocation of revenue and expenses to the gaining unit.
Alternatively, if an ADM report does not satisfy their objective, they indicated that
assigning unique lead finance numbers to all units will allow for financial transparency.



20
   Albany, Greater Boston, Northern New England, and the Central Pennsylvania districts.
21
   Of the 537 units discontinued from FYs 2009 through 2011, 221 subordinate stations and branches were still active
in the accounting system.
22
   For example, if there is a lead office with five subordinate stations and branches, the financial information for all six
is summarized with the lead office’s finance number.


                                                             5
Post Office Discontinuance                                                   FF-AR-12-007
 Accounting Procedures



Recommendations

We recommend the vice president, controller:

1. Develop specific criteria to deactivate unique lead finance numbers at closed postal
   retail units.

2. Establish a method to allocate and provide visibility of revenue and expenses at
   discontinued subordinate stations and branches.

Management’s Comments

Management agreed with the findings and recommendations in the report. Specifically,
management stated that in response to recommendation 1, effective December 31,
2012, they will implement an action plan to ensure unique lead finance numbers are
closed and properly realigned in conjunction with the 10-digit unit finance number. In
response to recommendation 2, effective March 31, 2013, management will implement
enhanced ADM reporting to monitor revenue and expenses posted to discontinued
offices within the station and branch hierarchy. This enhanced ADM reporting will allow
greater visibility of improperly allocated revenue and expenses. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.




                                           6
Post Office Discontinuance                                                    FF-AR-12-007
 Accounting Procedures



                             Appendix A: Additional Information

Background

This audit addresses the financial risk associated with not properly accounting for
revenue, expenses, assets, and liabilities when discontinuing retail postal units. From
FYs 2009 through 2011, 537 post offices, stations, and branches have been
discontinued as reported in the Postal Bulletin. However, in some cases these retail
postal units may have ceased actual operations as many as 20 years ago.

On December 23, 2011, the PRC issued Advisory Opinion on Retail Access
Optimization Initiative (RAOI), which identified problems with cost and revenue data to
unique 10-digit identifiers, finance number and name discrepancies across databases.
In their advisory opinion, the PRC concluded a number of findings, which included:

   The Postal Service should disaggregate cost data to allow estimation of
    unit-specific operating costs. Data on operating costs for most stations and branches
    are currently aggregated with the “main” Post Office and other subordinate stations
    and branches.

   The Postal Service should disaggregate revenue data to allow estimation of unit-
    specific revenue and net-revenue. Data on walk-in and total revenue for most
    stations and branches are currently aggregated with the “main” Post Office and other
    subordinate stations and branches.

   The Postal Service should standardize the identification of units across databases.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service properly accounted for
revenue, expenses, assets, and liabilities when discontinuing retail postal units.
To accomplish this objective, we reviewed retail postal operations discontinued from
FYs 2009 through 2011. In addition, we:

   Reviewed PRC documents related to discontinuing retail postal operations.

   Reviewed Government Accountability Office reports related to discontinuing retail
    postal operations.

   Reviewed the June 30, 2011, Management Instruction FM-130-2011-2.

   Interviewed Postal Service officials and reviewed policy and procedure guidelines to
    determine whether the Postal Service will be able to provide adequate visibility of
    unit-specific financial data in future retail postal unit discontinuances.




                                             7
Post Office Discontinuance                                                                            FF-AR-12-007
 Accounting Procedures


      Obtained financial data from the Postal Service Enterprise Data Warehouse,23 ADM,
       financial performance reports,24 and Postal Bulletins.

      Visited four districts (Albany, Greater Boston, Northern New England, and Central
       Pennsylvania) and Postal Service Headquarters to discuss procedures for closing
       financial accountabilities and providing visibility of financial activity at discontinued
       units. We randomly reviewed 20 discontinuance folders with the coordinator to
       identify expenses and procedures at units undergoing a discontinuance review.

We conducted this performance audit from November 2011 through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 28, 2012, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by
Postal Service operational systems. We did not test the validity of controls over these
systems; however, we verified the accuracy of the data by confirming our analysis and
results with Postal Service managers and other postal data sources. We determined
that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




23
     A collection of data from many sources, which is stored in a single place for reporting and analysis purposes.
24
     Financial performance reports are generated in ADM and compare current and prior years’ revenue and expense.


                                                           8
Post Office Discontinuance                                                                          FF-AR-12-007
 Accounting Procedures


                                      Appendix B: Other Impacts

            Recommendation                        Impact Category                       Amount
                  1                                 Data Integrity25                  $27,990,505
                  2                                 Data Integrity                     22,826,205
                Total                                                                 $50,816,710

We estimate the Postal Service improperly allocated $50.8 million of revenue and
expenses to discontinued post offices, stations, and branches. We identified
271 discontinued lead postal retail units that continued to accumulate $23.6 million in
revenue and $4.4 million in expenses allocated to those units. This yields an average of
$87,094 in revenue and $16,192 in expenses per unit. In addition, we identified
221 subordinate postal units, where revenue and expenses rolled up to a lead Post
Office. To estimate costs associated with those units, we multiplied our yield of $87,094
and $16,192 by 221 units, totaling $19.2 in revenue and $3.6 million and expenses.




25
  Data used to support management decisions that are not fully supported, erroneous, or completely accurate. This
can be the result of flawed methodology; procedural errors; or missing or unsupported facts, assumptions, or
conclusions.


                                                        9
Post Office Discontinuance                                       FF-AR-12-007
 Accounting Procedures


                             Appendix C: Management’s Comments




                                            10
Post Office Discontinuance        FF-AR-12-007
 Accounting Procedures




                             11
